           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        THE SOCIAL SECURITY
  ADMINISTRATION’S PROCEDURES FOR
   ADDRESSING EMPLOYEE-RELATED
     ALLEGATIONS IN REGION VII

      March 2005   A-07-05-15014




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY

MEMORANDUM


Date:   March 29, 2005                                                            Refer To:

To:     Ramona Schuenemeyer
        Acting Regional Commissioner
         Kansas City

From:   Inspector General

Subject: The Social Security Administration’s Procedures for Addressing Employee-Related
        Allegations in Region VII (A-07-05-15014)


        OBJECTIVE

        We conducted a review of the Kansas City Regional Office’s (KCRO) handling of
        employee-related allegations. Specifically, the objectives of our review were to:

            • evaluate the adequacy of the Social Security Administration’s (SSA) policies and
               procedures in Region VII for addressing employee-related allegations,

            • assess Region VII’s compliance with these policies and procedures, and

            • determine whether Region VII referred all employee-related allegations that should
               have been referred to the Office of the Inspector General (OIG).

        BACKGROUND
        SSA receives various types of allegations related to its programs, the misuse of Social
        Security numbers, and employee conduct. SSA receives allegations from employees,
        the public, congressional inquiries, internal security reviews, and the OIG. Allegations
        that involve actions on the list of alleged or suspected employee criminal violations must
        be referred to the OIG.1 This list is attached as Appendix D. Allegations concerning
        SSA employees are significant because of the potential losses to SSA’s programs and




        1
            SSA, Program Operations Manual System (POMS), GN 04112.005 B.
Page 2 – Ramona Schuenemeyer

the corresponding negative public impact. In determining the validity of allegations,
SSA is required to obtain sufficient evidence to support or remove suspicion that
criminal violations may have been committed.2 SSA’s policy states:

          “Prior to referral to the OIG, Office of Investigations Field Division, each potential
          violation and allegation must be developed by the field office, processing center,
          or other SSA office to the point where enough evidence has been secured to
          either remove suspicion or substantiate the violation.”3

In the KCRO, employee-related allegations are forwarded by OIG to either the Office of
the Regional Commissioner (ORC) or the Center for Security and Integrity (CSI). The
majority of allegations are referred to ORC. Only allegations involving security
violations are referred to CSI, though ORC forwards most allegations to CSI for
development. CSI is also responsible for supporting field office managers in developing
potential fraud issues by using computer system analysis and providing other technical
support. The ORC and CSI workflow processes are illustrated in Appendix C. The
Center for Human Resources’ Employee/Labor Relations Staff process adverse actions
against employees.

We reviewed 15 employee-related allegations referred to the KCRO by OIG during
Fiscal Years (FY) 2001 through 2003.4 KCRO stated that it did not receive any
allegations from sources other than OIG.5 See Appendix B for the scope and
methodology of our audit.

RESULTS OF REVIEW

For 12 of the 15 employee-related allegations we reviewed, the KCRO provided
sufficient documentation to verify that KCRO properly addressed the allegations.
However, for the remaining three allegations, there was insufficient documentation to
ascertain whether these allegations were properly developed and resolved.

Additionally, of the 15 allegations reviewed, we found the KCRO did not:
• Provide OIG the results of its review of two allegations within the required
  90-day period.
• Provide OIG the results of its review of two allegations.
• Have a control system that included all employee-related allegations.

2
    SSA, POMS, GN 04110.010 A.
3
    SSA, POMS, GN 04110.010 B.
4
    Of the 15 allegations referred by OIG, 12 were sent to ORC and 3 were sent directly to CSI.
5
 Since KCRO did not have a control system to track and account for allegations during most of our audit
period, we cannot be assured that there were no allegations referred from other sources. See “Receipt
and Control of Allegations” on page 4 of this report.
Page 3 – Ramona Schuenemeyer

RETENTION OF CASE DEVELOPMENT DOCUMENTATION

KCRO does not have a policy on the retention of documentation related to allegations
against employees.6 As a result, KCRO could not provide any development
documentation for 3 of the 15 employee-related allegations we reviewed. In
accordance with provisions of the Federal Records Act (FRA),7 we believe documents,
such as those concerning employee-related allegations, constitute a specific class of
records, which should be maintained in accordance with SSA record retention policies.

The KCRO should maintain sufficient evidence to document that employee-related
allegations are properly handled and developed. The lack of documentation limits
management’s ability to readily determine whether appropriate actions were taken to
resolve the allegations. Also, insufficient documentation hampers management’s ability
to identify recurring problems related to certain SSA locations or employees.

TIME REQUIREMENTS TO COMPLETE REFERRALS

The SSA component that receives an allegation referral from OIG is instructed to
provide OIG with the results of its findings within 90 days.8 The results should explain
what actions were taken on the allegation and also report any monetary recoveries or
savings realized.9 We identified two allegations where the response to OIG exceeded
90 days because KCRO did not have procedures in place to handle and control
allegations. These allegations were open for 96 days and 152 days, respectively. CSI
requested an extension on one of these allegations because the employee responsible
for the allegation resolution either did not receive the allegation or accidentally deleted it
from her email prior to resolution actions.

For two other allegations, we were unable to determine whether KCRO responded to
OIG within the required 90 days. KCRO provided documentation showing that the
allegations had been developed, but could not provide documentation to show when the
results were sent to OIG.

KCRO stated that it implemented procedures to handle allegations that specifically
address the time frames for responding to OIG. Since the procedures were
implemented after our audit period, we did not verify that the procedures ensured the


6
    Regions IV, V, and VI retain allegations for periods that range from 2 to 7 years.
7
  Federal agencies’ records creation, management, and disposal duties are set out in a collection of
statutes known as the Federal Records Act (FRA), 44 U.S.C. §§ 2101 et seq., 2901 et seq., 3101 et seq.,
3301 et seq. The FRA prescribes the exclusive mechanism for the disposal of Federal records. No
records may be “alienated or destroyed” except in accordance with the FRA’s provisions. 44 U.S.C.
§ 3314.
8
    OIG, Office of Investigations, Allegation Management Division, allegation referral form.
9
    Id.
Page 4 – Ramona Schuenemeyer

time requirements were met.10 While we recognize that some allegations may require
an extended period of time to develop, KCRO should monitor resolution time frames to
ensure adherence to the required 90-day period or document why the 90-day time
frame could not be met.

OUTSTANDING ALLEGATION REFERRALS

As of November 2004, KCRO had not provided OIG with the results of its findings on
two allegations, although the allegations were open longer than 90 days. KCRO could
not provide documentation to support the development of the allegations. Accordingly,
we could not determine whether these allegations were properly investigated and
whether one of these allegations, which may be potentially criminal, should have been
referred to OIG’s Office of Investigations (OI). KCRO should provide OIG with a
response on these allegations and, if appropriate, refer the allegation that involves a
potential criminal violation to OI.

RECEIPT AND CONTROL OF ALLEGATIONS

SSA’s procedures require the Region to preserve records that adequately and properly
document the organization, functions, policies, decisions, procedures, and essential
transactions of the Agency and protect the legal and financial rights of the Government
and persons directly affected by its activities.11 In addition, SSA’s procedures require
that control logs be retained for a two-year period.12 KCRO did not maintain a control
log to track the receipt and disposition of employee-related allegations because there
were no formal procedures in place to address allegations. As a result, we could not
verify that the total number of allegations we reviewed represented the total population
of allegations received during our audit period.

ORC staff currently log allegations into the Operations Paperless Tracking, Imaging and
Control (OPTIC) system, which is used to track all correspondence received by the
ORC.13 According to CSI staff, allegations sent directly to CSI would be logged into the
OPTIC system and tracked in the same manner as allegations sent to ORC. Since OIG
had not referred any allegations directly to CSI since August 2002, we did not verify that
CSI followed this procedure. In addition, CSI’s written procedures, which were

10
  CSI’s written procedures are dated October 2003 and ORC’s written procedures are dated
September 2004.
11
  Administrative Instructions Manual System Records Management Handbook, SSA Records, Retention,
and Disposition Program, Chapter 01.02.
12
 SSA, Operational and Administrative Records Schedules, Commissioner’s Correspondence and
Control Logs, CMS 02.01.00.
13
  According to ORC, current procedures have been in place since FY 2003, but were not documented
until September 2004. We were able to verify that ORC followed these procedures because the four
employee-related allegations referred by OIG in FY 2003 were logged into OPTIC, while the allegations
referred in FY 2001 and 2002 were not logged.
Page 5 – Ramona Schuenemeyer

developed in October 2003, do not require that allegations be entered into OPTIC.
Neither the ORC, nor the CSI written procedures specify that control logs should be
retained for two years. KCRO should include in its written procedures that allegations
received from both OIG and other sources be entered into a control log that is retained
for two years.

CONCLUSION AND RECOMMENDATIONS
Our review found the KCRO generally provided sufficient documentation to verify that
KCRO properly addressed employee-related allegations. However, we found that the
KCRO’s procedures could be improved to better ensure all allegations are recorded,
developed, and resolved timely and referred to OIG as appropriate. Also, the
procedures should ensure that adequate information is maintained to document the
investigation and resolution of employee-related allegations.

Accordingly, we recommend the KCRO:

1. Implement an allegation control process that documents the receipt, development,
   and disposition of all allegations.

2. Monitor time frames for reviewing and resolving employee-related allegations to
   ensure that they are addressed within a 90-day period.

3. Provide OIG a response on the two allegations that remain open and refer any
   potentially criminal violations to OI.

4. Include in its written procedures that allegations from OIG and other sources be
   entered into a control log that is retained for two years.

AGENCY COMMENTS
In commenting on our draft report, the Regional Commissioner agreed with our
recommendations. In response to our second recommendation, the Regional
Commissioner requested that OIG formally acknowledge the receipt of the region’s
request for a time extension to resolve an allegation. In response to our third
recommendation, the Regional Commissioner stated that the two open allegations were
investigated subsequent to our draft report and the results provided to OIG on
March 11, 2005. See Appendix E for the full text of SSA’s comments.
Page 6 – Ramona Schuenemeyer

OIG RESPONSE
The Regional Commissioner’s suggestion that OIG formally acknowledge the region’s
request for a time extension to resolve an allegation was referred to the responsible
OIG component for appropriate action.




                                        S
                                        Patrick P. O’Carroll, Jr.
                                 Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Workflow for Office of the Inspector General
              Allegation Referrals

APPENDIX D – Employee Violations

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                   Appendix A
Acronyms
CHR        Center for Human Resources
CSI        Center for Security and Integrity
EXO        Executive Officer
FRA        Federal Records Act
FY         Fiscal Year
KCRO       Kansas City Regional Office
MOS        Management and Operations Support
OI         Office of Investigations
OIG        Office of the Inspector General
OPTIC      Operations Paperless Tracking, Imaging and Control
ORC        Office of the Regional Commissioner
POMS       Program Operations Manual System
SSA        Social Security Administration
U.S.C.     United States Code
                                                                     Appendix B
Scope and Methodology
We reviewed employee-related allegations received by the Kansas City Regional Office
(KCRO) in Fiscal Years (FY) 2001 through 2003. For this period, we identified and
reviewed 15 allegation referrals from the Office of the Inspector General (OIG).
Additionally, we selected 80 adverse actions processed by the Center for Human
Resources’ (CHR) Employee/Labor Relations Staff to identify severe actions that may
be related to possible criminal violations. Based on our review of adverse action files,
we did not find any potential criminal offenses that were not reported to OIG.

To accomplish our objectives, we:

   •   Reviewed the following criteria:
       • Social Security Administration (SSA), Program Operations Manual System
       • SSA, Administrative Instructions Manual System
       • SSA, Operational and Administrative Records Schedules
       • Title 44 of the United States Code, Federal Records Act
       • Office of Management and Budget Circular A-123, Management
         Accountability and Control
       • Title 5 of the Code of Federal Regulations Part 2635, Standards of Ethical
         Conduct for Employees of the Executive Branch
       • SSA, Annual Personnel Reminders

   •   Obtained a list of 15 employee-related allegations processed by OIG and
       referred to KCRO during FYs 2001 through 2003.

   •   Interviewed officials within the Office of the Regional Commissioner (ORC),
       Center for Security and Integrity (CSI), Management and Operations Support,
       and CHR in Kansas City, Missouri.

   •   Reviewed ORC and CSI documentation for the development of evidence related
       to allegations received from OIG.

We performed field work at the SSA Regional Office in Kansas City, Missouri, from July
through November 2004. We determined that the data provided by the KCRO was
sufficiently reliable to meet our audit objectives and facilitated the development of
issues presented in the report. The entity reviewed was the KCRO under the Deputy
Commissioner for Operations. We conducted our review in accordance with generally
accepted government auditing standards.
                                                                                 Appendix C
Workflow for Office of the Inspector General
(OIG) Allegation Referrals
  Office of the Regional Commissioner (ORC)           Center for Security and Integrity (CSI)
          receives allegation via email                   receives allegation via email



                          Executive Officer (EXO) reviews the allegation



                             Is allegation of employee fraud/abuse
           Yes                   sensitive in nature (i.e., involve         No
                                      executive employee)?


                                                             ORC enters the allegation into
                                                                the OPTIC program


                                                                ORC assigns allegation to
                                                                   Management and
EXO investigates allegation and                                 Operations Support (MOS)
completes Allegation Response
         Attachment


                                                            MOS forwards allegation to CSI



                                                                     CSI investigates or
                                                                   forwards allegation to
                                                                  responsible component


 Allegations go through                                        CSI or component resolves
    EXO to Regional                 Allegations routed          complaint and completes
 Commissioner for final                back to ORC                Allegation Response
         sign-off                                                      Attachment



                     Allegation returned to OIG and cleared in OPTIC


                                            AND


                      If fraud substantiated, referral to OIG Office of
                     Investigations for possible criminal investigation
                                                                                         Appendix D
Employee Violations
LIST – EMPLOYEE POTENTIAL VIOLATIONS
(Program Operations Manual System, GN 04112.005D)
Employee violations include, but are not limited to situations in which an employee is suspected of willfully:
    •   acting as an agent or attorney for prosecuting any Social Security claim before the Commissioner,
        while an employee;
    •   disclosing without authorization any confidential information in violation of the Social Security Act
        or the Privacy Act of 1974;
    •   obtaining or attempting to obtain confidential information under false pretenses;
    •   making or causing to be made any false representation concerning the requirements of the Social
        Security Act or related provisions of the Internal Revenue Code;
    •   asking for, accepting, or agreeing to accept anything of value from a third party in return for
        executing or influencing the performance of official duties;

    •   participating in the planning or execution of any scheme or other activity under which a financial or
        other advantage improperly accrues or could accrue to any person or organization at the expense
        of the Government or parties with whom the Government may contract or otherwise deal;
    •   stealing or otherwise illegally disposing of refund remittances, Government checks, cash, directly
        deposited funds, or other obligations;

    •   illegally generating Social Security checks or depositing funds electronically to oneself or another;
    •   stealing or mutilating Government records, or destroying or removing them without authorization;
    •   violating conflict-of-interest laws as described in the Ethics in Government Act, the Standards of
        Ethical Conduct for Employees of the Executive Branch, and the SSA Guide on Employee
        Conduct;
    •   making or causing to be made any false statement or representation about wages, earnings, or
        self-employment income in connection with claims or the maintenance of earnings records;

    •   making or causing to be made any false statement or representation of a material fact in an
        application for payments or for a disability determination, or at any other time for use in
        determining rights to payments;
    •   concealing or failing to disclose a fact or event affecting initial or continued eligibility for payment;
    •   furnishing or causing to be furnished false information about identity in connection with a claim,
        issuing a Social Security number, or maintaining an earnings record;
    •   selling Social Security numbers/cards; or
    •   unlawfully disclosing, using, or compelling the disclosure of a Social Security number.
                                                    Appendix E
Agency Comments

MEMORANDUM

Date:      March 11, 2005

To:          Inspector General

From:      Acting Regional Commissioner
           Kansas City Region

Subject:   The Social Security Administration's Procedures for
           Addressing Employee-Related Allegations in Region VII
           (A-07-05-15014) - Response


We appreciate the efforts of the Office of the Inspector General
(OIG) in reviewing the adequacy of the Kansas City Region's
policies and procedures in handling employee-related allegations.
We agree with the recommendations and will address each
separately as outlined below:

•   Implement an allegation control process that documents the
    receipt, development, and disposition of all allegations.
    The Kansas City Regional Office has established written
    procedures to control Hotline Allegations and all appropriate
    staff have been trained.

•   Monitor time frames for reviewing and resolving employee-
    related allegations to ensure that they are addressed within a
    90-day period.
    The Kansas City Region makes every effort to resolve these
    allegations within the 90-day time period. However, there
    have been situations (i.e., the allegation deals with an
    employee issue as well as programmatic issues, such as misused
    funds) that cannot be processed to completion within the 90-
    day time frame. In those situations, we will contact OIG via
    email to advise that a time extension is needed along with the
    reason. Our response will address all issues at once.

    Although not part of this review, we would like to recommend
    that the current Hotline Allegation process allow regions to
    receive an acknowledgement from the OIG Hotline when a request
    for a time extension is made. It has been our experience that
    requests for a time extension are not acknowledged.



                                 E-1
•   Provide OIG a response on the two allegations that remain open
    and refer any potentially criminal violations to OIG.
    Allegation #P100117 - investigation completed and the findings
    were that the allegations were unsubstantiated. OIG was
    notified as of March 11, 2005.

    Allegation #P210454 - investigation completed and the findings
    were that the allegations were unsubstantiated. OIG was
    notified as of March 11, 2005.

•   Include in its written procedures that allegations from OIG
    and other sources be entered into a control log that is
    retained for two years.
    The Kansas City Region's SOP has been rewritten and includes a
    control log for all allegations. The control on all
    allegations will be retained for a two-year period.

If you have any questions, please contact Dorothy Reed, Acting
Director, Center for Security and Integrity, at 816-936-5555.


                                      Ramona Schuenemeyer




                                E-2
                                                                       Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Mark Bailey, Director, Central Audit Division (816) 936-5591

   Shannon Agee, Audit Manager (816) 936-5590

Acknowledgments
In addition to those named above:

   Tonya Coffelt, Auditor

   Deb Taylor, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-05-15014.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
